<html>
<title> - HUMAN RIGHTS IN CUBA: BEYOND THE VENEER OF REFORM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


           Human Rights in Cuba: Beyond the Veneer of Reform

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
          THE WESTERN HEMISPHERE, CIVILIAN SECURITY, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 11, 2019

                               __________

                           Serial No. 116-54

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                           or www.govinfo.gov                          
                         
                           
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-013PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                           
                          
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director                   
                   
                   
                                ------                                

  Subcommittee on the Western Hemisphere, Civilian Security, and Trade

                   ALBIO SIRES, New Jersey, Chairman
GREGORY W. MEEKS, New York           FRANCIS ROONEY, Florida,
JOAQUIN CASTRO, Texas                  Ranking Member
ADRIANO ESPAILLAT, New York	     CHRISTOPHER H. SMITH, New Jersey
DEAN PHILLIPS, Minnesota             TED S. YOHO, Florida
ANDY LEVIN, Michigan	     	     JOHN CURTIS, Utah
VICENTE GONZALEZ, Texas	     	     KEN BUCK, Colorado
JUAN VARGAS, California	     	     MIKE GUEST, Mississippi

                      Sadaf Khan, Staff Director
                          
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS SUBMITTED FROM COMMITTEE MEMBERS

Hon. Albio Sires, Chairman of the subcommittee...................     3

                               WITNESSES

Quesada, Carlos, Executive Director, International Institute on 
  Race, Equality, and Human Rights...............................     9
Martinez De La Serna, Carlos, Program Director, Committee to 
  Protect Journalists............................................    22
Suarez, John, Executive Director, Center for a Free Cuba.........    34

                                APPENDIX

Hearing Notice...................................................    56
Hearing Minutes..................................................    57
Hearing Attendance...............................................    58

 
           HUMAN RIGHTS IN CUBA: BEYOND THE VENEER OF REFORM

                        Thursday, July 11, 2019

                        House of Representatives

                Subcommittee on the Western Hemisphere,

                      Civilian Security, and Trade

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 10:04 a.m., in 
room 2172 Rayburn House Office Building, Hon. Albio Sires 
(chairman of the subcommittee) presiding.
    Mr. Sires. Good morning, everyone. This hearing will come 
to order. This hearing titled, ``Human Rights in Cuba: Beyond 
the Veneer of Reform,'' will highlight the human rights 
situation in Cuba, prospects for democratic reform, and options 
for United States policies. Without objection, all members may 
have 5 days to submit statements, questions, and extraneous 
materials for the record, subject to the length limitations in 
the rules.
    I now will make an opening statement and then turn it over 
to the ranking member for his opening statement.
    Good morning, everyone. Thank you all to our witnesses for 
being here today to discuss the human rights situation in Cuba. 
As my colleagues know, this subject is deeply personal to me. I 
left Cuba and came to the United States when I was 11 years 
old. I am forever grateful that this country took me in. I work 
hard every day to represent each member of my district 
including the many first-generation immigrants who, like me, 
were forced to leave their home countries in search of a better 
life.
    For this reason, it is especially painful for me that 
despite great progress over the last six decades to improve 
quality of life around the world, the Cuban regime remains 
stuck in the Dark Ages. This is a government that continues to 
lock up those who speak out against it. It is a government that 
criminalizes the core freedoms that are the foundation of any 
democracy. It is a government that for sixty years has denied 
the Cuban people their rights to choose their own leaders.
    Some observers have hoped that economic openings, like the 
growing number of small businesses on the island, will pave the 
way for political reform as well. Unfortunately, the Cuban 
state has shown an ability to withstand those changes while 
remaining among the most repressive governments in the world. 
The Economist Intelligence Unit classifies Cuba as an 
authoritarian regime and Freedom House rates Cuba as ``not 
free''. This year, Cuba ranked 169th of 180 countries in global 
press freedom, according to the Reporters Without Borders.
    The Communist Party has accepted and even encouraged some 
cosmetic changes to give the impression that life on the island 
is improving. But the underlying reality of one-party rule 
remains intact. Even as internet access has expanded, those 
Cubans who can afford to go online have their every move 
tracked by the State and are prohibited from accessing dozens 
of blocked websites.
    Cuban citizens with the means to travel are increasingly 
allowed to do so, but only on the condition that they respect 
the long arm of the Cuban police state. For instance, activists 
seeking to travel into international forums to offer testimony 
about Cuba's human rights record are often prevented from 
leaving the island. Despite the laws prohibiting discrimination 
on the basis of sexual orientation, a group of Cuban LGBT 
rights activists were arrested and beaten by plainclothes 
security officers on May 11th when they organized a peaceful 
demonstration that the government had refused to authorize.
    It seems that the Cuban regime is always devising new 
strategies aimed at improving its international image without 
actually changing its system of one-party dominance. I know 
that we may not all agree about the best direction for U.S. 
policy toward Cuba, but I hope that we can agree that the 
status quo in which 11 million people are denied their basic 
rights by Cuba's authoritarian regime is an injustice.
    It was in this spirit that earlier this year I introduced a 
resolution condemning conditions of forced labor that Cuban 
doctors are subjected to. The resolution contends that Cuba's 
foreign medical missions constitute human trafficking, given 
that the Cuban Government forces doctors to participate in the 
program against their will and garnishes as much as 75 percent 
of their wages.
    In Venezuela, Cuban doctors were forced to withhold 
lifesaving medical treatment from individuals who have not 
proven their political loyalties to the repressive Maduro 
regime. In this hearing we will take a closer look at the human 
rights situation in Cuba and explore ways for the U.S. Congress 
to support the Cuban people in their quest for freedom.
    Thank you, and I now turn to the Ranking Member Rooney for 
his opening statement.
    [The prepared statement of Mr. Sires follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rooney. Thank you, Mr. Chairman, for having this 
important hearing and for your great leadership of our 
committee. For almost 50 years, Fidel Castro ruled Cuba by 
repression which denied the Cuban people their most basic human 
rights and violently crushed political dissent. Today, this 
system of intimidation and violence against those who speak out 
against the regime continues under Miguel Diaz-Canel, and the 
guiding hand of Raul Castro is behind that anyway.
    Under Fidel Castro, the Cuban regime spread its Communist 
ideology throughout Latin America and in Southern Africa. The 
Cuban regime continues to be the standard for repression in the 
Western Hemisphere. Today, we see its blueprint for tyranny in 
Venezuela and Nicaragua as it attempts to spread its repressive 
tactics to other States in the region.
    Under this regime, the Cuban people are deprived of their 
freedom of assembly, association, religion, and speech as the 
government maximizes State control over all aspects of society. 
Like the old Soviet Union, this system of repression and 
control seeks to instill fear among the population and 
undermine the ideals of freedom and democracy. Until 2013, 
Cubans were required to obtain an exit visa and a letter of 
invitation to travel abroad, creating an island prison for 
millions of Cubans. Today, the regime restricts travel for many 
Cuban dissidents.
    Opposing the Cuban regime nearly guarantees government 
backlash and detention. In June 2018, the Cuban so-called 
Commission for Human Rights and National Reconciliation 
released a public list of 120 political prisoners, including 96 
non-violent opponents of the regime. However, this number is 
probably a lot higher, because it is impossible to determine 
the exact number of political prisoners in Cuba.
    The regime refuses to allow access to prisons and detention 
centers and to international organizations or the U.N. The 
regime also engages in short-term detentions to intimidate and 
silence dissidents. In 2018, 2,873 short-term detentions were 
recorded. And in 2016, an all-time high of detentions was 
reached of 9,940.
    The island's human rights defenders, religious groups, and 
organized dissident groups are constantly harassed by the Cuban 
Government and labeled as mercenaries. Their leaders are in 
constant danger of being detained. These groups include Las 
Damas de Blanco that was formed by the wives and relatives of a 
group of 75 dissidents arrested in 2003, and the Patriotic 
Union of Cuba which was established in 2011 by another group of 
dissidents who peacefully sought to establish civil liberties 
and human rights.
    Many of their members such as Hamel Santiago Maz Hernandez 
have died in prison after being detained for arbitrary crimes 
such as desacato or lack of respect for the government. Dr. 
Eduardo Cardet, who was in prison for two and a half years for 
publicly criticizing Fidel Castro, while he was released in 
2019, the release is conditional and his right to move and 
assembly are restricted, keeping him as prisoners of 
conscience.
    The Cuban regime censors dissent through its control of the 
media. Private media in Cuba is illegal and the government uses 
arbitrary detention, threats, harassment, and censorship 
against journalists who criticize the regime. In 2018, two 
human rights organizations affiliated with OAS reported that 
Cuba is the only country in the Western Hemisphere in which 
there are zero guarantees of freedom of expression.
    To complement its repression at home, the Castro regime has 
exported thousands of its agents to Venezuela to prop up the 
illegitimate, authoritarian Maduro regime in Venezuela and to 
struggle to maintain its own authoritarian grip on power. These 
Cuban agents have assisted in extrajudicial detention, torture, 
and intimidation of opponents of the Chavez and, now, Maduro 
regimes. They run the so-called escuadron azul, the death squad 
of Maduro.
    The United States must exert maximum pressure on the Cuban 
regime to reform its government and stop the systematic human 
rights abuses against the Cuban people. The Obama 
Administration's efforts to re-engage the Cuban regime, while 
noble, have failed to assure quantifiable improvements in human 
rights conditions and the rule of law. We must continue to 
support Cuba's human rights defenders and demand that the Cuban 
regime make substantive reforms that will allow for freedom.
    Access to information is absolutely critical and support 
for independent news and information must continue to engage 
the Cuban people. I support the administration in no longer 
rewarding the Castro regime for its human rights abuses and for 
calling on the government to end its repression of innocent 
Cubans. I look forward to the hearing, the testimonies today, 
and once again I appreciate Chairman Sires for his leadership 
and for his personal interest and background story pertaining 
to the abuses of Cuba.
    Thank you, Chairman.
    Mr. Sires. Thank you. Thank you, Congressman Rooney.
    I will now introduce our witnesses. Let me introduce, 
first, Mr. Carlos Quesada, Executive Director of the 
International Institute on Race, Equality, and Human Rights. He 
has 25 years of experience working before the Organization of 
American States in its different bodies and is a trained 
journalist and a lawyer. Welcome.
    We will then hear from Mr. Carlos Martinez de la Serna, 
Program Director of the Committee to Protect Journalists. Mr. 
Martinez worked as a reporter and a digital journalist in the 
United States, Spain, and Japan, covering current affairs and 
is the former director of digital innovations at Univision 
News. Welcome.
    Finally, we will hear from Mr. John Suarez, Executive 
Director of the Center for a Free Cuba. Previously, Mr. Suarez 
was a program officer for Latin American Programs at Freedom 
House and a human rights activist, and he is a member of the 
Cuban Democratic Directorate.
    Thank you all for being here. I ask the witness to please 
limit your testimony to 5 minutes and, without objection, your 
prepared, written statements will be made part of the record. 
Thank you so much for being here today.
    And, Mr. Quesada, I turn to you for your testimony.

STATEMENT OF CARLOS QUESADA, EXECUTIVE DIRECTOR, INTERNATIONAL 
         INSTITUTE ON RACE, EQUALITY, AND HUMAN RIGHTS

    Mr. Quesada. Chairman Sires, Ranking Member Rooney, and 
members of the Subcommittee on the Western Hemisphere, Civil 
Security, and Trade, thank you for the opportunity to appear 
before you today to share critical information regarding the 
human rights in Cuba, prospects for democratic reform, and 
options for U.S. policy. I commend the committee for holding 
this important and timely hearing.
    Given our extensive work with civil society, with 
independent Cuban civil society, my testimony today will focus 
on threats and challenges to human rights defenders in Cuba and 
the methods employed by the Cuban Government to criminalize or 
otherwise restrict the work of civil society organizations and 
activists. This criminalization has resulted in a population of 
political prisoners totaling 100, and disproportionately 
impacts historically marginalized populations.
    The human rights situation in Cuba is dire and can be 
characterized as a war of attrition between the government and 
independent civil society activists. State authorities 
routinely violate the fundamental freedoms enshrined in the 
Universal Declaration of Human Rights by harassing, 
threatening, detaining, and interrogating activists and their 
families.
    The principal threats and challenges to human rights 
defenders in Cuba include the new constitution and restrictions 
on fundamental rights. Furthermore, the arbitrary manner in 
which the Cuban justice system operates, the principal method 
by which activists are criminalized, is a threat in and of 
itself.
    The contrived approval of the new constitution in the 
February 24th referendum ushered in a new era with regard to 
legal guarantees for human rights in Cuba. In a calculated move 
to create a loophole through which it can avoid complying with 
international human rights treaty obligations, the Cuban 
Government altered the text of the new constitution to grant it 
supremacy over international law.
    Freedom of expression and opinion is nonexistent in Cuba. 
Independent civil society organizations are not permitted to 
legally register, in violation of their right to freedom of 
association. Activists and their family members face constant 
psychological torture. And we just found out that private 
companies such as Western Union may collaborate with government 
authorities to criminalize human rights activists, in clear 
violation of those activists' rights to privacy. Finally, 
arbitrary detentions and further violations of due process 
guarantees are commonplace.
    The principal methods employed by the Cuban Government to 
criminalize or otherwise restrict the work of civil society 
organizations and activists include the misuse of the justice 
system and travel restrictions. Police and investigating 
authorities have broad and unchecked powers to detain and 
investigate individuals for up to 7 days without the right to 
counsel or judicial review. Crimes in the Cuban Penal Code are 
so vaguely defined that they can be used to criminalize almost 
any behavior. Sham trials involving false witnesses are used to 
convict activists.
    For the past 2 years, we have documented cases of political 
prisoners and the crimes for which they are convicted. Let me 
be clear. Although the vast majority of these individuals are 
charged with common crimes, they are political prisoners 
criminalized because of their activism of their way of 
thinking. In the coming weeks, we will be publishing a report 
exposing the intricacies of the administration of justice in 
Cuba.
    Independent civil society activists are frequently 
prohibited from leaving Cuba to participate in regional and 
international advocacy spaces as a tactic to prevent the world 
from knowing the reality of the human rights situation in Cuba. 
Most recently, five activists that we, my organization, had 
planned to bring to the Organization of American States General 
Assembly in Medellin, Colombia, were prevented from leaving the 
country. The only justification ever offered is ``national 
security interests.''
    It is worth noting that activists who are women, Afro-
descendants, and members of the LGBTI community 
disproportionately suffer human rights violations in Cuba. 
Their intersectional characteristics make them particularly 
vulnerable to multiple forms of discrimination. Female 
activists, for example, routinely confront physical and 
psychological violence against which they have no recourse, 
given Cuba's lack of legislation prohibiting gender-based 
violence.
    Racial slurs are commonly employed against Afro-descendant 
activists who, the saying goes, should be grateful because the 
Revolution made black people human. And members of the LGBTI 
community are facing a new reality after the violent crackdown 
they experienced during the independently organized Pride March 
on May 11th of this year.
    Chairman Sires, Ranking Member Rooney, and members of the 
subcommittee, human rights in Cuba should remain a priority 
area of focus for the U.S. Government. The fundamental rights 
of activists, whose work is the country's best prospect for 
democratic reform, are systemically violated. As such, I would 
like to offer the following recommendations:
    Continue to monitor and expose the human rights situation 
in Cuba. Request the Cuban Government immediately release all 
political prisoners. Offer public support for independent civil 
society activists and journalists. Expand the U.S. diplomatic 
presence in order to have more direct contact with independent 
civil society organizations on the island. Encourage the Cuban 
Government to engage in a dialog with independent civil society 
regarding human rights issues. And request from Western Union 
information about how it operates in Cuba and how government 
officials can have access to information about activists 
receiving money from abroad.
    Thank you very much and I look forward to your questions.
    [The prepared statement of Mr. Quesada follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sires. Mr. Martinez, you are recognized.

  STATEMENT OF CARLOS MARTINEZ DE LA SERNA, PROGRAM DIRECTOR, 
                COMMITTEE TO PROTECT JOURNALISTS

    Mr. Martinez de la Serna. Chair Sires, Ranking Member 
Rooney, and other distinguished members of the subcommittee, 
thank you for the opportunity to testify on press freedom in 
Cuba. My name is Carlos Martinez de la Serna and I am the 
program director of the Committee to Protect Journalists. CPJ 
is an independent, nonprofit organization that promotes press 
freedom worldwide and defends the rights of journalists to 
report news safely and without fear of reprisal.
    In this testimony I will highlight some of the most urgent 
press freedom issues in Cuba. I will also provide 
recommendations on how to support Cuba's journalists and to 
help improve conditions for independent media in Cuba.
    Even as Cuba has seen some points of tight State control 
over media and freedom of expression loosen over the last 
decade, the country continues to be one of the Western 
Hemisphere's most difficult environments for the press. 
Independent and critical Cuban journalists constantly face the 
possibility of detention, having their homes or devices 
searched, their reporting equipment confiscated, and even 
criminal prosecution on anti-State charges. The slowly 
expanding influence of the internet has opened up new avenues 
for expression and journalistic work, but has also expanded the 
set of tools at Cuban officials' disposal to monitor, surveil 
and censor journalists, media workers, and private citizens.
    Over the last decade, in the midst of this established 
repressive infrastructure, a lively blogosphere and a number of 
new, ambitious websites and media outlets has sprung up on the 
island. This new media expansion began in earnest in 2011, when 
then-President Raul Castro introduced market-style reforms, 
opening up economic space for the creation of a number of 
outlets that began as what were essentially personal blogs, and 
then grew into independent sites.
    With the restoration of diplomatic relations between the 
United States and Cuba in 2014, the process accelerated and the 
number of blogs, magazines, and independent media proliferated 
to cover a variety of issues. However, despite these efforts, 
the energized press alone could not overturn the country's 
restrictive legal framework.
    Life in Cuba for many reporters and activists is 
characterized by arbitrary privacy violations. Short-term 
arrests are still one of the most common tools used by Cuban 
authorities to intimidate and control the press. The State 
maintains bans on the import of informational materials, a 
strict control of all forms of media, and restrictions on the 
internet. Changes in top leadership in the Cuban Government 
have not translated to any meaningful alteration in legislation 
governing media freedom or freedom of expression.
    There is a long way to go in Cuba. In order to improve its 
record on free expression, Cuba must take the following steps: 
Ratify and implement international human rights agreements to 
guarantee freedom of expression and information; end the use of 
detention, surveillance, and smear campaigns against 
independent journalists and bloggers; remove legal barriers to 
individual internet access and extend affordable access to the 
population at large; and dismantle a legal framework that 
punishes independent journalism.
    We also urge members of Congress to speak publicly about 
the journalists and outlets who are subject to detention, 
travel prohibitions, and other State-sponsored harassment; 
support initiatives to expand affordable internet access in 
Cuba and access to platforms and tools that will allow Cubans 
to exercise their right to free expression online, without 
enforced surveillance or censorship; and urge the 
administration to stand up for Cuba's journalists both publicly 
and privately as well. In addition, the U.S. Government should 
consider Cuban journalists' work as a basis for a well-founded 
fear of persecution if and when they apply for asylum or 
refugee status.
    While there are still many hurdles on the path to U.S.-
Cuban normalization, the effect of greater communication 
between both countries could be positive for freedom of 
expression on the island. As a result, journalists will 
hopefully be able to do their jobs without the constant threat 
of violence or imprisonment solely for reporting and expressing 
critical opinions, and with the prospect of internet access 
without filters, obstructions, or prohibitive costs.
    Thank you for providing CPJ with the opportunity to address 
you about this important matter.
    [The prepared statement of Mr. Martinez de la Serna 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Sires. Thank you.
    Mr. Suarez.

STATEMENT OF JOHN SUAREZ, EXECUTIVE DIRECTOR, CENTER FOR A FREE 
                              CUBA

    Mr. Suarez. Chairman Sires, Ranking Member Rooney, and 
members of the subcommittee, thank you for this privilege to 
provide testimony on human rights in Cuba. My name is John 
Suarez. I am the executive director of the Center for a Free 
Cuba, a nonprofit, nonpartisan organization dedicated to the 
promotion of human rights in Cuba.
    To understand the human rights situation in Cuba, one must 
understand what came before. Cuba had regular competitive 
elections and between 1944 and 1952 presidents who respected 
human rights and civil liberties. This was reflected in the 
role Cuban diplomats played in 1948 in pushing for regional and 
international human rights covenants.
    All of this came crashing down with Fulgencio Batista's 
military coup in 1952. The Castro brothers promised to restore 
democracy while imposing a Communist dictatorship in 1959. In 
May 1961, they confiscated private schools and most seminaries 
to eliminate religion. In September 1961, the Castro regime, at 
gunpoint, collected 131 priests, brothers, and a bishop and 
placed them on board the Spanish ship Covadonga and deported 
them from Cuba. Today, the Office of Religious Affairs, an arm 
of the Central Committee of the Cuban Communist Party, still 
oversees religious affairs in Cuba and exists to monitor, 
hinder, and restrict religious activities.
    Sixty years later, Fidel Castro is gone, but his brother 
Raul remains along with the Communist regime. What is called 
reform in Cuba has been a fraud for the dynastic succession of 
the Castro family. Raul Castro remains in control of the 
government as head of the Communist Party. His son, Alejandro 
Castro Espin, a colonel in the Ministry of the Interior, 
presided over the Cuban side in the negotiations to normalize 
relations during the previous administration.
    In 2018, Raul Castro presided over the revision of the 
current constitution that was subjected to a referendum on 
February 24th, 2019. On February 24th, Cubans were called to 
the polls to ratify a new constitution that despite cosmetic 
changes enshrines the principles of the existing one-party 
political system. Basic conditions for free and fair elections 
were not fulfilled, independent observers were not allowed, and 
numerous voting irregularities were reported.
    This is the third time during the Communist era that the 
constitution was changed. The Communist Party remains the only 
legal political party. The maximum authority in the regime 
resides with the head of the Cuban Communist Party. The late 
dissident leader, Oswaldo Paya Sardinas, called this fraudulent 
change. There have been no improvements at all to the nature of 
the Cuban regime. It is a one-party, Communist dictatorship run 
by the Castros.
    Opposition groups in Cuba are not legally recognized and 
independent civil society is actively discouraged. Independent 
human rights organizations in Cuba are illegal. There is no 
space for free expression in Cuba. The Cuban Government 
attempted to create a fake space for debate on the 
constitutional referendum, but when independent actors 
attempted to speak in them freely, the response was swift and 
brutal.
    Over the past 16 months, two decrees have further 
undermined and restricted human rights. Decree 349, signed by 
President Diaz-Canel in 2018, further restricts and controls 
artistic expression in Cuba. This provoked protests by 
independent artists, many were arbitrarily detained, and at 
least two have been jailed for a prolonged period. Article 68 
of Decree-Law 370/2018, issued on July 4th, 2019, prohibits 
Cuban citizens from running websites hosted outside of the 
country.
    Cubans continue to defy the dictatorship and demand their 
rights and freedoms, often paying a terrible cost. With us 
today is Sirley Avila Leon. Sirley was a delegate to the 
Municipal Assembly of People's Power in Cuba for 7 years when 
the regime eliminated her district. She had fought to open a 
school in her district, but had been ignored by official 
channels and had reached out to international media. Her son, 
Yoerlis Pena Avila, who had an 18-year distinguished career in 
the Cuban military was forced out when he refused to declare 
his mother insane and have her committed.
    Sirley joined the dissident movement and repression against 
her increased. On May 24th, 2015 she was the victim of a 
machete attack carried out by Osmany Carrion that led to the 
loss of her left hand, right upper arm nearly severed, and 
knees slashed into. Following the attack, she did not receive 
adequate care and was told quietly by medical doctors that if 
she wanted to get better, she would need to leave Cuba.
    This is not new. Cubans sought freedom by fleeing the 
island. While others have protested for their rights over 
decades, the response has often been brutal. Twenty-five years 
ago, on July 13th, 1994, regime agents killed 37 Cubans when 
they tried to flee to freedom aboard the ``13 de marzo'' 
tugboat. Less than a month later, August 5th, 1994, the streets 
of Havana erupted when thousands of protesters chanting 
``libertad'' were repressed.
    Cuban dissident Oswaldo Paya on March 30th, 2012 warned 
about the Cuban Government's effort to perpetuate itself in 
power. He also knew what real change would look like and argued 
that the gradual approach only makes sense if there are 
transparent prospects of freedom and rights. Oswaldo also 
reminded many who have forgotten that ``We Cubans have a right 
to our rights.'' Human rights and the Cuban struggle for 
freedom are not an afterthought, but the central issue in the 
dispute between Cubans and the dictatorship.
    Thank you very much.
    [The prepared statement of Mr. Suarez follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sires. Thank you very much, Mr. Suarez.
    Now we will go to questions. I will start with the 
questioning. The New York Times reported that Cuban doctors in 
Venezuela were being forced to withhold lifesaving medical 
assistance in order to coerce desperate individuals into voting 
for the Maduro regime. I introduced a resolution to classify 
the medical missions that these doctors were part of as human 
trafficking.
    Can you speak about how the Cuban regime has profited from 
its medical missions and whether the U.S. Congress should take 
steps to assist the victims of these medical missions? Can 
anyone speak to that?
    Mr. Suarez. Yes. The issue of human----
    Mr. Sires. Turn your mic on.
    Mr. Suarez. The issue of human trafficking is something 
that, fortunately, has been in the latest report on trafficking 
reflects that Cuba is in the black list for that issue. And we 
are talking about healthcare professionals in this case and 
they do have a duty to put the Revolution first and their 
medical duties second, and that is something that you mentioned 
that is reflected in what is taking place in Venezuela and in 
other places.
    The regime is profiting to the tunes of billions of dollars 
a year in this export of doctors. There are tens of thousands 
of doctors across the world, not only in Venezuela but also in 
Mexico, across Africa, and areas of the Middle East, and they 
are the chief source of revenue for the Castro regime. I think 
that a return to a policy that protects those doctors and 
provides them with refuge would be a welcome step forward. 
Thank you.
    Mr. Sires. Thank you. I was disturbed to hear about Cuban 
LGBT activists being arrested and beaten up for participating 
in a peaceful demonstration in May. What have you been hearing 
from the LGBT activists and organizations on the island and if 
they are concerned that the overall situation for LGBT rights 
defenders is worsening in Cuba?
    Mr. Quesada.
    Mr. Quesada. Yes, we have been working with LGBT activists 
for more than 7 years and independent LGBT activists. The main 
problem, I think, before the May 11th march was the 
cancellation of the typical conga by the CENESEX, you know, and 
the CENESEX, Center for Sexual Education, run by Mariela 
Castro, Raul Castro's daughter.
    So independent civil society, LGBT activists decided that 
they would like to have like an independent march. Four of our 
partners were actually detained before the march took place and 
CENESEX actually decided to organize a party the same day on 
May 11th at the same time of the march. A lot of people were 
not allowed to actually go to the march, like the main LGBTI 
activists. We know that they were interrogated up to for 24 
hours. They were told that they had two options, either leave 
the country or face jail time. Some of them actually have left 
the country already.
    And, in general, I would say regarding the human rights 
situation of LGBT people there are two main problems. One is 
kind of the monopoly of the State in terms of LGBT rights, and 
the lack of participation by independent LGBT activists to even 
LGBTI activities outside of Cuba. That is all I would say.
    Mr. Sires. Anybody else want to add to that?
    You know, the Chinese company, Huawei, has worked closely 
with the Cubans telecommunications monopoly to develop the 
country's telecommunication infrastructure. Given this 
company's close ties to the Chinese Communist Party, are you 
concerned about this in Cuba?
    Mr. Martinez, anybody?
    Mr. Suarez. Yes, we are very concerned. The Chinese have a 
record of developing a very sophisticated system of control, 
not only censorship but also monitoring and locating 
dissidents, in the past they did it with the help of companies 
such as Yahoo in China. And activists were imprisoned, some 
were tortured and killed, and we are very fearful. And I think 
considering the new decree that came out on July 4th, the 
prospects that they will be targeting cyberactivists has 
increased dramatically in Cuba. And with Huawei's help, 
unfortunately, they will be able to be quite effective in 
targeting these activists.
    Mr. Sires. Thank you.
    Ranking Member Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    First, I would like to ask Mr. Suarez, since you mentioned 
about websites and internet, the Wall Street Journal had a 
picture this week of a bunch of Cuban kids sitting on a curb, 
all on their phones just like any other kid would be right 
here, talking about the extension of 3G in Cuba and the 
protests that the young people are having now over the price of 
it. I wonder if that gives us an opportunity and how you feel 
about the opportunities that technology might present that 
might chink at the armor there.
    Mr. Suarez. Well, I think that the Castro regime has had a 
series of strategies of control. Initially, they just did not 
provide access to internet to anyone on the island. It was 
dramatically restricted. Cuba had some of the lowest levels of 
internet connectivity in the Hemisphere. Between 2002 and 2008, 
the Castro regime outlawed the purchase of computers in Cuba. 
Now they have shifted and they have allowed more access. They 
have allowed 3G recently.
    But what they are doing hand-in-hand with it is this new 
Decree 68 from July 4th, which is now going to be going after 
those cyberactivists that have set up platforms outside of the 
island where the regime has less control, and they are pushing 
to have those shut down. And they are going to be becoming more 
restrictive internally with their Chinese friends with the 
golden shield which has been very effective in mainland China. 
I believe they are going to be applying those tactics inside of 
Cuba.
    So it is going to be a very long, hard road for independent 
journalists that until now have been able to get their work out 
of the island and then back in.
    Mr. Rooney. No Romanian imminent? No Ceausescu moment 
imminent yet.
    Mr. Suarez. No.
    Mr. Rooney. But an opportunity.
    The other thing I would like to ask any of you that would 
like to answer is about religious freedom in Cuba. When I was 
there, the Spanish priests that we talked to said that the 
government pre-clears their sermons. They will let them have 
Mass, but the government is there and they are pretty 
restrictive about it. I know Cardinal Ortega personally and I 
know he has been very controversial. Half the people think he 
is too much close to Castro, half the people think he is doing 
all he can.
    So any comments that you all might have on what 
opportunities we may have to deal with some of the challenges 
to religious freedom in Cuba?
    Mr. Suarez. Well, I think that one thing that the U.S. can 
do that would be of great assistance would be to push for the 
Cuban Government to shut down the Office of Religious Affairs. 
I think it is an outrage that the Central Committee of the 
Communist Party oversees religious life in Cuba. And Pope John 
Paul II during his visit in 1998 requested that that be closed 
down. It has not been. And I think it is an area where if a lot 
of light is brought on it and a lot of international 
attention--it is an embarrassment for the Castro regime--and I 
think it could be something that would be a positive step 
forward for religious freedom if that office is gotten rid of.
    Mr. Rooney. Anyone else want to comment?
    Please, Dr. Quesada.
    Mr. Quesada. I would like to, actually, to add the fact 
that, you know, how the government manipulates, so to speak, 
the freedom of religion in Cuba, and I would like to use the 
example of Article 68 in the proposed constitution that 
guarantees gay marriage in Cuba.
    So the article was literally taken out of the proposed 
constitution according to the government because the religious 
groups were not happy about it. And, actually, the religious 
groups in Cuba were very active against that article and the 
government allowed those fundamentalists, if I can use the 
word, to actually take Article 68 out of the proposed 
constitution. So what I am saying here is that sometimes, you 
know, it is, you know, they allow the religious freedom for 
their own purpose and sometimes they just restrict the freedom 
of religion.
    Mr. Rooney. I have one more question for whoever would like 
to answer it. You know, Lenin said the capitalists will sell us 
the rope we will use to hang them with, and I wonder if there 
is a role for international business in the United States to 
push international business, to push companies that are working 
there, which there are many, to not deal through GAESA and 
break that link between employers and their employees and the 
clever way the Cubans are keeping capitalism out of the system 
down there.
    Mr. Suarez. Well, I think you brought up a very important 
matter. GAESA, which is run by Raul Castro's son-in-law, 
controls close to 60 percent of the Cuban economy and has--the 
bulk of the tourist industry is run under GAESA which is an arm 
of the Cuban military establishment. I think that it would be 
very positive if international business followed the path that 
was followed in South Africa with the Sullivan principles. 
There is a case a few years back that came with something 
called the Arcos principles, named after another prominent 
Cuban human rights defender, that would have principled 
investment inside of Cuba.
    I also think it is important to point out that perhaps we 
should highlight the numerous business people from Western 
democracies that have been locked up in Cuba, and their crime 
has been that the Cuban Government has not been able to pay the 
bill that it owes them. So then the response is they lock them 
up and then loot them completely.
    Mr. Rooney. Thank you. Thank you.
    Thank you, Chairman.
    Mr. Sires. Congressman Levin.
    Mr. Levin. Thank you very much, Mr. Chairman.
    Mr. Quesada, I was interested in the comment you just made. 
It sounds like there are troubling parallels between the Cuban 
Government and our own in terms of their kowtowing to religious 
groups and limiting the freedom of LGBTQ people in our--in both 
of these countries. So I hope we can make progress on that. You 
mention in your recommendations that you think the U.S. should 
expand its diplomatic presence in Cuba in order to have more 
direct contact with independent civil society groups.
    Can you--what is the history of our diplomatic presence 
over the last 10 years and where is it today?
    Mr. Quesada. I think the main problem today is the lack of 
staff that the embassy has right now. When we had an interest 
office, so to speak, it was also limited, but when we had an 
embassy, when we became an embassy there, there were more 
personnel. People were, you know, the different political, or 
civil servants on the island were able to reach out to 
activists. And right now, because of the limited staff that the 
embassy has, basically, I mean even our partners on the ground 
have been telling us as that they do not even have access now 
to the embassy as they used to have it before. So that is why I 
was recommending to have a more diplomatic presence, so to 
speak.
    And the other thing is that what we find out is that to 
visit political prisoners or former political prisoners is very 
important for them.
    Mr. Levin. So we re-established diplomatic relations in 
December 2015 or thereabouts and we built up our diplomatic 
presence and now we have many fewer staff there.
    Mr. Quesada. Correct.
    Mr. Levin. So it is hard for us to interact with these 
groups on the ground, support political prisoners, and other 
things to advance the human rights cause without sufficient 
staff.
    Mr. Quesada. Correct.
    Mr. Martinez, I am curious about whether the--how you see 
the ability of journalists and organizations that support 
journalists like yourself to interact with their counterparts 
in Cuba like American journalists based on, you know, 
restrictions of travel and what not. Is it better to have more 
free travel of American journalists to Cuba and others who 
would support them or less free interaction? Which would be 
better to support human rights in Cuba and specifically the 
rights of journalists to do their work? Do you understand the 
question?
    Mr. Martinez de la Serna. Well, I am not sure what you want 
me to answer, yes.
    Mr. Levin. So we are going toward, you know, in basically 
2014 and 2015 we moved toward an idea that we should have more 
engagement with Cuba----
    Mr. Martinez de la Serna. Yes.
    Mr. Levin [continuing]. Rather than less. Now we are moving 
the other direction.
    Mr. Martinez de la Serna. Yes.
    Mr. Levin. Restricting travel, restricting interaction, 
keeping Americans from going to Cuba, is that helpful for the 
human rights of, you know, and the freedom of journalists to 
work in Cuba, to restrict Americans' access?
    Mr. Martinez de la Serna. Generally speaking, generally 
speaking, I do not think so. We need always more eyes on the 
ground and more interaction to understand the problems and also 
to support journalists on the ground.
    Mr. Levin. Thank you.
    Thanks very much, Mr. Chairman. I feel we are going in the 
wrong direction. I yield back.
    Mr. Sires. Thank you, Congressman.
    Congressman Smith.
    Mr. Smith. Thank you very much, Mr. Chairman, for holding 
this important hearing. Thank you to our witnesses.
    You know, in the 1980's I traveled with Armando Valladares 
to the U.N. Human Rights Council, then called the Commission. 
He was able to get an important resolution passed as head of 
the U.S. delegation. As we all know, he spent close to 20 years 
in the gulags of Fidel Castro, was tortured horribly, and when 
he wrote ``Against All Hope,'' his memoir, he pointed out how 
systematic the brutality was by the Castro regime.
    There was commitments made to the U.N. personnel and to the 
families that came forward, there will be no retaliation. 
Almost to a person, there was retaliation. There was concern 
just expressed that we do not have enough people working in the 
embassy, but let's not forget why those people were ordered 
home. Between November 2016 and May 2018, there were a number 
of unexplained injuries, cognitive loss, hearing loss; we do 
not know the full reason why, but it was very, very suspicious.
    So out of an abundance of caution and concern for our 
embassy personnel and their families, many were returned to the 
United States. And let me just say, after the rapprochement 
with Fidel Castro, I went and met along with Piero Tozzi, our 
general counsel on the Human Rights Committee--I was chairman 
of it, held many hearings on Cuba--and met with Cabanas, asked 
him for a visa; I still have not gotten it. He told me they 
will tell me certain people I can talk to and not talk to.
    So I asked him, ``Do other congressional delegations when 
they go to Cuba agree to those preconditions?'' And he said 
yes.
    And I would just admonish and encourage my fellow Members 
that when you go there should be an unfettered ability to talk 
to dissidents and get into the prisons. And I would ask the 
panel whether or not the ICRC has had access--the International 
Committee for the Red Cross--to the prisons, and again do they 
have concerns about these parameters that are put on Members 
who then willingly accept them, apparently, when they go?
    Let me also bring out the issue of trafficking. President 
Obama had falsely and, I think, artificially upgraded Cuba. I 
am the author of the Trafficking Victims Protection Act, so I 
take very seriously all things related to trafficking. Frank 
Calzon, I remember, when we were in Geneva one time at a Human 
Rights Commission a van pulled over, because he was bringing up 
child sex trafficking in Cuba, and was punched by Cuban thugs 
who did not like what he was doing in town.
    But I am glad that this Administration, Pompeo, has now 
downgraded Cuba to tier 3 and in a narrative make it very clear 
as to why that is the case including these medical missions and 
the coercion that is used. But it was artificially upgraded. 
All these give-and-no-take from the previous administration, I 
thought was ill-advised at best. I mean human rights should 
always be at the core of what we do and we need to see 
progress.
    There was no linkage to this opening of the embassy, and 
then what happens to our embassy personnel--they get sick. And 
again, we think there may have been some very--so my question, 
ICRC access to prisons, whether or not when Members of Congress 
go there, or other lawmakers, is it your knowledge that they 
agree to these preconditions?
    I would love to go to Cuba. I have tried for 25 years to 
get into the prisons; only to have the door slammed by Fidel 
Castro who once called me a provocateur for wanting to go the 
prisons. You know, I go to prisons all over the world. I have 
been in prisons in Indonesia, China, Beijing Prison Number 1 
where Tiananmen Square activists were, the Perm camp 35, the 
infamous prison where Natan Sharansky was in the 1980's; I 
cannot get into a prison in Cuba.
    So your thoughts on that and again, and also on this 
trafficking upgrade--downgrade, I should say--to tier 3. Cuba 
is now with North Korea, China, Syria, Venezuela as an 
egregious violator of human trafficking, whether or not you 
agree with that.
    Mr. Suarez. The International Committee of the Red Cross, 
the last time they were able to visit a Cuban prison was in 
1989. They had a small period between 1988 and 1989 that they 
were able to conduct some visits. Before that it had been 1959. 
So we are talking 30 years since the last visit and then 
another 30 years before that, before that first visit, that 
first range of visits. And I think that is an area where there 
needs to be focus placed by the international community and 
calling on the Cuban Government to allow the International 
Committee of the Red Cross, which is a nonpartisan entity, to 
have access to those prisons to see what the conditions are, to 
see how the prisoners are being treated.
    With regards to tier 3, I think that it is important to 
recall that when Cuba was redesignated tier 2, experts in the 
antislavery movement came out and denounced it at the time as a 
politicization of the process. So I think returning Cuba to 
tier 3 is the correct thing to do because it reflects the 
accurate situation on the ground. Thank you.
    Mr. Quesada. If I can add a little bit on the human rights 
situations in prisons, I mean, in general, the situation is 
very horrible, but it is particularly horrible for political 
prisoners. And I would like to mention the case of Mr. Eduardo 
Cardet who was brutally beaten when he was detained. During 
prison he was attacked. He did not have access to medical 
attention for a long time. I mean we have documented his whole 
case and it shows the level of violence that political 
prisoners face in a Cuban prison, and this has been denounced 
by the Inter-American Commission on Human Rights and the United 
Nations.
    And I would just like to tell you that last year Cuba was 
reviewed under the Universal Periodic Review and some countries 
actually make recommendations about improving the situation of 
prisoners in Cuba.
    Mr. Sires. Thank you, Mr. Quesada.
    Congressman Castro.
    Mr. Castro. Thank you, Chairman.
    With the Obama Administration a few years back now, I 
believe started to try to normalize relations with Cuba, first 
diplomatically, because folks believed that after the Castro 
era was over that there would be an opening for the United 
States to have a better, legitimately have a better 
relationship with Cuba, that Cuba would perhaps become 
democratic, that it would fundamentally change, And we wanted 
to establish that relationship before other countries like 
China or Russia or Venezuela, or others solidified their hold 
on Cuba for another 30 or 40 or 50 years.
    So I guess my question to you all is, how has governance 
changed, if at all, since the Castro regime, and who is in 
charge now? What is the state of governance in Cuba?
    Mr. Quesada. I would like to talk about it from the human 
rights perspective and, unfortunately, the human rights 
situation has not changed. And the situation right now as it 
was in the previous administration or other administrations, I 
mean if you are a person who thinks differently in Cuba, you 
face the consequences, basically. And we have not, in terms of 
human rights and the situation of human rights, we have not 
seen any change.
    What we have seen is the consistency of the government to 
commit human rights violations. And this has been said by the 
Inter-American Commission on Human Rights and U.N. treaty 
bodies.
    Mr. Martinez de la Serna. If I can add on freedom of 
expression, there has not been any reform on the legal system 
supporting all the repression on independent journalism and 
there is no sign we see that that is going to happen under the 
current government.
    Mr. Castro. In your estimation, has there been any move 
closer to democracy, real democracy?
    Mr. Martinez de la Serna. No.
    Mr. Suarez. With regards to who is running Cuba, Raul 
Castro. Under the Cuban system, the maximum authority is the 
head of the Communist Party and that is the title that he 
holds. He also was the individual who oversaw the 
constitutional reform process in 2018. Second----
    Mr. Castro. So you are saying that you still believe that 
he is strongly in control.
    Mr. Suarez. He is strongly in place, but also for the 
negotiations for normalizing relations between 2013 and 2014 it 
was Alejandro Castro Espin, Raul Castro's son, who was the 
person that the U.S. was negotiating with. So the Castro family 
is still very much----
    Mr. Castro. Now bear in mind, he is what, 80, late 80's at 
this point?
    Mr. Suarez. Raul Castro in his late 80's. Alejandro Castro 
is 53, and he is a colonel in the Ministry of the Interior who 
has a very hostile view toward the United States.
    I think it is also important to recall that when the U.S. 
diplomats went to Havana to begin the process of normalizing 
relations and opening up the embassy, that Russian spy ships 
were in----
    Mr. Castro. Right.
    Mr. Suarez [continuing]. Havana Harbor to send a very clear 
message. And I think also if we look at that period when the 
negotiations were taking place in 2013, Cuba was caught 
smuggling tons of weapons to North Korea. Cuba was caught a few 
months later involved in a shipment of ammunition to Colombia. 
So they are very much an outlaw State in terms of their 
behavior. And I think also talking about the diplomats, 
American diplomats have been harmed since November 2016, which 
has led to this pullback at the U.S. embassy. But it is also 
important to remember Canadian diplomats have been harmed. 
Canada, that has had very good relations with Cuba, has also 
had to pull back and they have had to reduce their presence.
    So now Cubans cannot get--in the same way that they have to 
go to a third country to get visas to be able to visit the 
U.S., they are having to do the same with Canada. So it is 
definitely a step back.
    Mr. Castro. And also I wanted to ask you about access to 
information now. For example, if you go to China, you cannot 
get on Facebook. Has that improved in Cuba at all?
    Mr. Martinez de la Serna. I think in that regards, because 
there is some slight improvement--there is internet, there is 
cell phones, and there is access to Facebook--that is probably 
one of the most critical opportunities to promote access to 
information, the free flow of information in Cuba, but 
providing or helping build an independent internet 
infrastructure that cannot easily be controlled, surveilled and 
blocked by the government, which is what is happening today.
    Mr. Castro. I yield back, Chairman.
    Mr. Suarez. I would add one thing that on July 4th they 
passed a new decree, Decree-Law 370/2018, which now will 
prohibit Cuban citizens from running websites hosted outside of 
the country, which was one of the ways they are able to get 
uncensored information produced from inside and then reflected 
back into the island. So it looks like that opening may be 
closing.
    Mr. Castro. Thank you.
    Mr. Sires. Congressman Ted Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    I appreciate you gentlemen being here. Can you describe the 
impact or restriction on basic human rights over many 
generations has had on the broader Cuban population? That is 
No. 1. And--well, go ahead and answer that question first. You 
know, for 60 years of repression and suppression, and 
suppression of free thought, freedom of speech, what effect has 
that had on the Cuban population, on their outlook on freedom 
and things like that?
    Mr. Martinez de la Serna. It is very hard for me having not 
been exposed to that situation, right, to assess what that 
means, so I do not want to venture into that. It is just 60 
years of not having access to independent information to free 
debate on public issues and on many other things that is 
catastrophic.
    Mr. Yoho. It is. It squashes hope and outlook for the 
future, right, and so we know that.
    Mr. Quesada.
    Mr. Quesada. Yes. I would say that since they have access 
to internet and Facebook and those kinds of things, we can see 
kind of two generations and the younger generation is more 
exposed to outside information and what is going on outside and 
this has changed the minds of a lot of youth. And I would say, 
unfortunately, for--or a negative side of it has been like if 
you ask today a young Cuban if they want to stay in Cuba, the 
answer will be no. They want to have what they have seen on the 
internet.
    Mr. Yoho. That is interesting. So one of my questions for 
clarification, was there any positive effect that the Cuban 
people, secondary to the relaxation of travel and other 
restrictions that were lifted by the previous administration, 
the Obama administration, was there any positive effects of 
that?
    Mr. Martinez de la Serna. Definitely on the journalism side 
as----
    Mr. Yoho. On the what side?
    Mr. Martinez de la Serna. On journalism, as journalists 
were able to get out of Cuba, come to the U.S., engage with 
journalists here and other places, and get back into the 
country. So.
    Mr. Yoho. But at the same time, there were not more people 
going to prison for--the journalists going--there was more 
going?
    Mr. Martinez de la Serna. The repressive tactics have kind 
of shifted, so you are not seeing long-term sentences.
    Mr. Yoho. Not long term, but----
    Mr. Martinez de la Serna. Short-term detentions.
    Mr. Yoho [continuing]. Short ones, but more people going.
    Mr. Martinez de la Serna. That is an intimidation tactic, 
yes.
    Mr. Yoho. Right. Did these changes give any more freedom to 
the Cuban people or was there any increase in abuses by the 
authoritarian figures who were acting on their own or directed 
by the Cuban Government, anybody?
    Mr. Suarez. Well, during this process, as my colleague just 
suggested, there was an increase in arbitrary detentions. But 
there was also--and we are talking going back to 2011, 2012--
the case of high-profile figures in the opposition who were 
extrajudicially executed as the case of Oswaldo Paya and Harold 
Cepero. There is also the very suspicious death of the founding 
leader of the Ladies in White, Laura Pollan.
    Mr. Yoho. Right.
    Mr. Suarez. Which in both cases I think there should be 
serious international investigations. There was also an 
increase of violence, of machete attacks. We brought today 
Sirley Avila Leon who is a victim of such an attack in May 
2015, but there have been others.
    Mr. Yoho. Right. Unfortunately, I feel like Mr. Levin in 
that I do not see a change coming, which is unfortunate.
    When we see these other countries doing trade with Cuba, 
what other countries are there helping press the Cuban 
Government to improve their human rights and independent press? 
Are there any other countries standing up?
    Mr. Quesada. Yes. During the Universal Periodic Review of 
Cuba last year, a lot of countries, specifically from Western 
Europe and the Nordics, were like pushing Cuba or, you know, 
like asking for to improve the human rights conditions of 
journalists, human rights defenders, activists, et cetera.
    Mr. Yoho. But how far are they willing to go, because do 
not a lot of those countries operate the hotels and the 
resorts, do not they? And I know that money goes to the Cuban 
Government, not to the Cuban people, and so I see them 
complicit in providing the funding for the Cuban Government. 
And yes, they say, well, you need more open press and things 
like that, but yet I do not see the actions living up to the 
rhetoric they say they want to help.
    Mr. Quesada. Congressman, I do not know the level of like 
investment of like Sweden in Cuba or something like that, but 
yes.
    Mr. Yoho. All right, so I guess along those same lines, how 
effective do you think the international bodies like the U.N. 
or the EU or the OAS are on--I know they document this, but--
invoking a change? And as long as a Castro is there, I do not 
think it is going to change. Do you have any other thoughts on 
that?
    Mr. Suarez. I think, unfortunately, when this drive for 
normalization took place with the U.S. it had a negative impact 
with regards to the European Union. The European Union in 1996 
had set up a common position which conditioned their 
relationship with Cuba with improving human rights standards. 
And during this normalization process that position was retired 
and now they are pursuing this normalize--their relations with 
the regime without having that human rights----
    Mr. Yoho. Right.
    Mr. Suarez [continuing]. Element being conditional. And 
that is a profound setback.
    Mr. Yoho. Thanks for pointing that out.
    Thank you, Mr. Chairman.
    Mr. Sires. Congressman Phillips.
    Mr. Phillips. Thank you, Mr. Chairman. And thank you to 
each of our witnesses. I think it is fair to say that during 
the Obama administration we made some steps in opening up trade 
and relations with Cuba. I think that door has been 
considerably closed since the Trump administration has been in 
office. Curious from each of your perspectives, how would you 
quickly articulate what our current strategy is relative to 
Cuba?
    Mr. Suarez. The current strategy is looking at Cuba within 
a regional context. Cuba has thousands of soldiers and 
intelligence assets in Venezuela that are playing a very 
negative role. They are also playing a negative role in 
Nicaragua. So the administration has chosen to tighten 
sanctions on Cuba in an effort to leverage influence for them 
to improve as actors in Venezuela.
    Mr. Phillips. OK.
    Mr. Martinez?
    Mr. Martinez de la Serna. I am sorry. That is out of my 
scope of expertise.
    Mr. Phillips. OK.
    Mr. Quesada?
    Mr. Quesada. I am working on human rights exclusively, so, 
yes.
    Mr. Phillips. OK. Do any of you feel that our current 
sanctions, and particularly the embargo, have had any effect in 
ending Communism or benefiting the people of Cuba?
    Mr. Martinez de la Serna. That is again out of the scope. 
What I can tell is having--and I specifically mentioned that 
during my testimony--that having, trying to cultivate 
diplomatic relation on specifically freedom of expression, 
which is my area of expertise, we believe would be positive for 
the development of journalism, independent journalism in Cuba.
    Mr. Phillips. OK, any other comments?
    Mr. Suarez?
    Mr. Suarez. I think that the issues of economic sanctions 
has much more to do with containment of Cuba in the region than 
it does with, in terms of changing the system inside the 
island. I do think that if you are going to be having 
investments and relations with Cuba, it needs to be with 
everyday Cubans and not with the Cuban military and the 
intelligence apparatus. Unfortunately, a good chunk of the 
Cuban economy is run by the Cuban military. And we have seen 
when the discussion came initially, when the administration was 
talking about limiting trade with those military entities, 
there were people on this side saying that makes it very 
difficult because a good chunk of the economy is run by the 
military.
    So if you are opening up trade and building up the most 
repressive elements of the regime, I do not think that is going 
to be a positive long-term. And during the Obama Administration 
there was an expansion of military control over sectors of the 
economy that had been controlled by less negative actors in the 
Cuban system. The Office of the Historian in Havana had most of 
the hotels that they had in downtown taken over by the military 
during this opening.
    Second, I think it is also interesting to note that exports 
between the U.S. and Cuba, exports of U.S. products collapsed 
during the Obama Administration. The top year of trade 
according to the Census Bureau was the last year of the Bush 
Administration, which I believe was over $700 million. After 
the normalization of relations in December 2014, that dropped 
to about a $149 million.
    Mr. Phillips. Well, I am glad you bring up trade. That was 
one of my questions. Is there a way that we could expand trade 
and benefit the Cuban people without enriching those who, you 
know, we do not want to see enriched?
    Mr. Suarez. I think it would be focusing on individual 
Cubans and also pushing for the Cuban Government to make 
reforms where business people can directly pay a Cuban employee 
and not have to go through a government agency where they take 
90 percent and then the employee gets 10 percent.
    Mr. Phillips. Is that possible?
    Mr. Suarez. To make the demand and to push for it is very 
possible. Now whether they will respond positively, I do not 
know. It should be an effort that is made and then see what 
they do.
    Mr. Phillips. OK.
    Mr. Quesada or Mr. Martinez?
    Mr. Martinez de la Serna. I am not an expert on trade. I 
would just like to add that internet is a critical piece in the 
building of the system of repression and also opening in Cuba 
in terms of like it empowers people directly. And in terms of 
communications, helping expand its access, expand its being out 
of surveillance and controlled by State can be a critical piece 
in terms of fostering development of all kinds including 
freedom of the press.
    Mr. Phillips. OK.
    Mr. Quesada. I would just like to mention that as a lawyer, 
I mean there has to be a lot of amendments and changes in the 
Cuban law in order to have an effective way of trade. And based 
on our experience, looking at all the Cuban laws, I mean it 
is--I do not think it is possible right now.
    Mr. Phillips. OK, thank you. I yield back.
    Mr. Sires. Thank you. We are going to go a second round of 
questions if you have some time, because I want to get 
something clarified in my mind.
    You know, we talk about investing in Cuba. People talk 
about investing in Cuba. That is how it is going to help the 
Cuban people. But if I am a company and I want to open up a 
business in Cuba and I need 200 employees, how does that work 
with the Cuban Government?
    Mr. Quesada. Well, the State is the main employer in Cuba. 
So if you want to have--like you can open your own business, 
but if you want to have--like in the tourism industry, for 
instance, a lot of the people that work there like they are 
hired, you know, with a State employer company. So if you, you 
know, if you are an activist and you think differently, you are 
unemployed basically. You cannot have access to a lot of jobs 
there.
    Mr. Sires. How does the salary work, Mr. Suarez? Some 
people are under the impression that when you open up a 
business in Cuba they get the salary and betters the people.
    Mr. Suarez. No, you have to pay to a government bureau who, 
in turn--you pay in hard currency to a government bureau who 
then, in turn, pays the Cuban in Cuban pesos, which is a 
fraction of the value.
    I think it is also important, talking about business 
investments, we looked at the--Google had a recent agreement 
with the Cuban Government and they have their servers in Cuba 
that is helping to speed up internet. Now that demand to have 
the servers in Cuba, which we have seen in places like China, 
is so that the Cuban services can have access to those servers 
and that creates a number of problems.
    And again, they are doing business, but their business is 
directly with the Cuban Government and that obviously benefits 
the Cuban intelligence service in terms of their ability to 
surveill what Cubans are doing on the internet and who they are 
communicating with.
    Mr. Sires. What is the unemployment rate in Cuba now, 
anybody know?
    Mr. Suarez. I can find out. I do not know off the top of my 
head.
    Mr. Sires. OK.
    Congressman Rooney.
    Mr. Rooney. Listening to Mr. Suarez, again I am thinking of 
Lenin and the capitalist quote here, and I think there has got 
to be some role to make the American people realize how GAESA 
has got a stranglehold on the employees and how it prevents the 
spread of true capitalist ideology by breaking that link.
    And if you have any more to elaborate on that and on the 
cost of internet now that that genie is a little bit out of the 
box and they are going to try to ration it through cost, how 
you feel that might play out.
    Mr. Suarez. I mean the prices have dropped somewhat so 
things have improved in terms of access. But I think the 
paradox is they are shifting strategies. Their strategy before 
was to ration access and now their strategy is to control the 
information that they have access to through the internet. And 
that is why they have passed this new decree which is going to 
make it much more difficult to get information outside.
    I do not--I am not terribly optimistic over the long run 
for Facebook and other platforms. They have their own domestic 
versions that they have created with the help of the Chinese, 
and we know that the Chinese have already barred Facebook and 
some of the--and YouTube and some of these other platforms in 
China. So I would not be surprised to see that also taking 
place in Cuba.
    But I think it is important to point out that Cuba remains 
a Communist regime. It does not respect private property 
rights. In addition to Cubans being still expropriated today by 
the regime when they do too well, we also find a number of 
Western businessmen who, when the government could not pay 
their bills the way they solved the problem was to lock them 
up--businessmen from Canada, the United Kingdom, from Italy, 
Chile, and other places.
    Mr. Rooney. Of course they took the risk.
    Mr. Suarez. Yes. And they paid a very high price.
    Mr. Rooney. And they could have stood up to GAESA and other 
people and said we will only come in--the parallel to China 
with Google is a little alarming there, but--one more question, 
if I might then.
    How effective have our important international 
organizations like the United Nations, the EU, and our OAS been 
in affecting the discussion of human rights in Cuba?
    Mr. Suarez. I think it is very important. One of the things 
is that I have met with members of the OAS and they constantly 
ask, you know, the Cubans tell us that they do not care what we 
say in our reports. But we have found is when a precautionary 
measure or an urgent action is issued, you see a shift in 
behavior by the Cuban regime with those specific victims. And I 
think you could see that with the case of Eduardo Cardet and 
others that when that precautionary measure, when that light is 
focused in on that prisoner, they change their behavior.
    Cuba does take the U.N. Human Rights Council very 
seriously. They put a lot of resources to put a big dog and 
pony show during the Universal Periodic Review. They try to do 
everything possible to block activists from addressing it. 
There was a meeting recently on a U.N. committee on race where 
they blocked the Afro-Cuban activists from attending and at the 
same time claimed during that meeting that there was no racism 
in Cuba.
    So they do try to put on a very strong diplomatic 
offensive, and I think it is important for the international 
community and for the United States to highlight human rights 
at the regional level and at the international level and it 
does make a difference.
    Mr. Rooney. Thank you. I yield. Thank you.
    Mr. Sires. Congressman Smith, do you have another question?
    Mr. Smith. I do. Thank you very much, Mr. Chairman.
    Thank you, Mr. Chairman.
    Just let me ask you, Mr. Suarez. I think your point about 
containment was extremely well taken and I thank you for it. 
You know, Europe and Canada traded to their hearts' content, so 
if just trade would have led to a Cuban dictatorship 
matriculating to a democracy, well, why did not it happen with 
that? So containment and the ability to do even worse harm, I 
think your point was, like I said, very well taken.
    Let me ask you your thought. You know, I will never forget 
on December 17th, 2014, the Washington Post did an editorial 
and it went like this: ``Obama gives the Castro regime in Cuba 
an undeserved bailout.'' And by the way--and this is the 
Washington Post; it is not the Washington Times. It is a very 
liberal newspaper.
    Their editorial board concluded that ``On Wednesday, the 
Castro's suddenly obtained a comprehensive bailout--from the 
Obama Administration. President Obama granted the regime 
everything on its wish list that was within his power to grant. 
Full diplomatic relations will be established, Cuba's place on 
the list of terrorism sponsors reviewed and restrictions lifted 
on U.S. investment and most travel to Cuba.'' And it went on 
from there.
    You know, in retrospect, many of us believe that there 
should have been a linkage to human rights. I said it. I held 
hearings on it. And, you know, we got a, just a cold stare from 
the administration on all of that. And, like I said, they 
falsified the reporting on human trafficking to give them a 
passing grade, and I find that absolutely unconscionable. No 
matter how you want to deal with a country diplomatically, you 
do not falsify their report and their record, I should say, on 
human trafficking. And yet, the Obama administration did. Your 
thoughts on whether or not the Washington Post got it right.
    And, finally, you talked about Google. I held a series of 
hearings on Google and their relationship with the Chinese 
Government and how they share personally identifiable 
information whenever the secret police asks for it. In 2006, I 
had a hearing right here, had Google testify, and they 
basically said--as did Yahoo, Microsoft, and one other 
organization company, under oath--that if they are asked to 
give information to the secret police--what would you like? Now 
is that what is happening in Cuba too, with Google?
    Mr. Suarez. That is what I believe is happening in Cuba for 
them to be able to continue operating there.
    Mr. Smith. Wow. That is incredible. That means that there 
is no privacy whatsoever for any Cuban citizen and Google is 
complicit in working with the regime.
    But if you could speak to what I thought was a very, very 
well-spoken or written, I should say, editorial by the 
Washington Post.
    Mr. Suarez. The Washington Post got it right. One of the 
things that was most shocking at the time was that if you 
recall there were Cuban spies, the Cuban Five, that the 
remaining three were freed during that agreement. One of them, 
Gerardo Hernandez, was serving a double life sentence, one for 
his espionage against the United States, but, second, for a 
murder conspiracy in the Brothers to the Rescue shootdown where 
three U.S. citizens and a U.S. resident were killed on February 
24th, 1996.
    Gerardo Hernandez was the head of that spy network and was 
providing information that led to that shootdown. They were 
returned to Cuba as conquering heroes. It was a great 
propaganda victory because the regime had for, since the year 
1998, 2000, been doing this big campaign, Free the Five. So 
that was an immense victory for the dictatorship both 
internally and internationally because they had those spies 
touring the world basically expressing their defiance.
    Now these spies in addition to sabotage and their 
involvement with the Brothers to the Rescue shootdown, had been 
involved in plotting based on instructions from Havana to 
engage in terrorist actions on U.S. soil. They were instructed 
to send death threats to a retired CIA official and eventually 
send him a mail bomb and kill him. And that was in the 
diskettes that were recovered by the FBI from the spy network. 
So releasing those individuals, I think, was a grave error.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Sires. Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    I would just think it is ludicrous that anybody thinks they 
are going to change habits down there. You know, in 2014 when 
they opened up relationships and they talked about, ``Well, 
they will get free and expanded internet service,'' yes, there 
might be a little bump-up in that for the Cuban people, but 
overall it empowers the Cuban Government. And with what China 
is doing and their close association with an improved internet 
service, they are going to do the same thing that Xi Jinping in 
China is doing with facial recognition and the good citizen 
scores and they are going to control their population more than 
they have ever been controlled before.
    Do the people in Cuba, is the broader Cuban population 
aware of the human rights abuses and the political prisoners? I 
mean you guys do your best to get the information out, but how 
aware are they in Cuba, or are they immune to what is going on 
and saying, ``Eh, that is just life in Cuba?''
    Mr. Quesada. Regarding the situation of political prisoners 
within the island, they share information through the internet. 
So, you know, like when Eduardo Cardet was released, for 
instance, you know, his family sent out some messages and--the 
human rights activists. I am talking about the human rights 
activists. They were able to know that----
    Mr. Yoho. But how much disseminated is that? How well 
disseminated is that?
    Mr. Quesada. I cannot answer that question.
    Mr. Yoho. Overall, I mean people are pretty much, have they 
become complacent and say that is life in Cuba, right?
    Mr. Martinez de la Serna. Information is pretty much 
controlled, yes.
    Mr. Yoho. OK. How effective are the broadcasts from Radio 
Television Marti out of Miami? I have been there. It is a 
phenomenal operation. How effective is that getting freedom 
ideas to Cuba?
    Mr. Suarez. Well, I think that shortwave radio is a 
critical way to bypass government controls. They can do jamming 
up to a certain point of shortwave, but it is not as complete 
as it can be with the internet where you have seen 
dictatorships just turn off the internet in some extreme 
examples.
    Mr. Yoho. Right.
    Mr. Suarez. Cuban activist Ricardo Bofill, one of the deans 
of human rights in Cuba from the 1970's, 1980's, described that 
there was a demarcation point before and after Radio Marti in 
terms of the impact it had on the island in terms of people 
being able to hear a different point of view, of hearing voices 
of other activists broadcast back into the island was something 
that had a big impact and still does.
    Mr. Yoho. Are any thumb drives getting down there or CDs 
or----
    Mr. Suarez. Sure.
    Mr. Yoho [continuing]. Those kind, are they getting in 
there?
    Mr. Suarez. They are.
    Mr. Yoho. What is a better way for us to help get 
information to Cuba for the Cuban people?
    Mr. Suarez. I do not think it is an either/or. I think 
shortwave that needs to be maintained.
    Mr. Yoho. And all of the above?
    Mr. Suarez. And all of the above. I think also it is 
important to mention that during the Obama Administration, they 
lifted restrictions to attempt to get a cable from the U.S. to 
Cuba----
    Mr. Yoho. Right.
    Mr. Suarez [continuing]. And it was Cuba that said they 
were not interested and instead ran the cable from Venezuela.
    Mr. Yoho. Sure. And it is all going to be controlled by 
China, or China is going to have their 5G. China has got, I 
think, 60 percent of the 5G network in the world today and this 
is just one more area it is going to go. And they are going to 
use the despotic things that Xi Jinping has offered to Maduro, 
to Putin, to the Iranian ayatollahs and it will be in Castro 
and it will be complete control, George Orwellian, of the 
people of those nations.
    And it is something that we need to wake up as--and I wish 
these other countries would wake up that are doing business 
because we know if you do business with Cuba, 90 percent of 
that money goes to the Cuban Government, pittances go to the 
Cuban people and they keep them repressed and suppressed and it 
is not going to change unless the people are empowered to 
change, and it is what you guys do.
    Mr. Chairman, I yield back and thank you for your time.
    Mr. Sires. Thank you.
    Ladies and gentlemen, thank you all for being here today 
for this important hearing. Human rights in Cuba continue to be 
curtailed by the regime. I will continue working with my 
colleagues to shed light on these abuses. I thank the witnesses 
and all members for being here today. With that, the committee 
is adjourned.
    [Whereupon, at 11:21 a.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
